No. 20-1536

 

 

In THE
Supreme Court of the United States

UNITED STATES OF AMERICA,

Cross-Petitioner,
v.

Common GROUND HEALTHCARE COOPERATIVE,
ON BEHALF OF ITSELF AND ALL OTHERS
SIMILARLY SITUATED,

Cross-Respondents.

On Conditional Cross-Petition for a
Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

BRIEF IN OPPOSITION TO
CONDITIONAL CROSS-PETITION
FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,868 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 17, 2021.

 

Wilson-Epes Printing Co., Inc.
